                         CLOSEOUT FOR M96050012


On 1 9 9 6 , Dr.                          the program director for cross-disciplinary
activities                                                                      in the
Directorate for                                OIG that he had received an electronic
                                         the complainant, that contained allegations of




postdoctoral position in a colleague's laboratory and that the scientist had. "quoted
verbatim the title and contents" of the colleague's pending proposal            .'

OIG found that the list of reviewers of the colleague's proposal did not include the
scientist or anyone else from the foreign country. . OIG found that the scientist's two-
paragraph letter contained two sentences that appeared to be derived from the
colleague's proposal. One sentence appeared to be derived from the title and the
second from a sentence in the colleague's description of his research program. The
letter did not contain an attribution to the colleague's proposal. OIG did not view the
amount of apparent copying as serious, but did view it as evidence that the
confidentiality of peer review might have been violated.

In response to OIG's inquiry the scientist said that he had copied the text in questlon
from a publication by the author of the proposal. He provided a citation to the
publication. The complainant explained that he had not thought of the publication as a
source of the text because it was a regionally distributed pamphlet and he did not think
someone in a foreign country would have access to it. The complainant provided OIG
with a copy of the publication. OIG found that the colleague's proposal and the article
had the same title and that one sentence of the article contained text similar to the
sentence in the proposal that had been copied into the scientist's letter. OIG concluded
that the scientist had copied the text in question from the article, which was available
to him, and not from the colleague's pending NSF proposal, which was, as far as we
could ascertain, not available to him.

OIG concluded that there was no substance to the allegations of plagiarism or violation
of the integrity of the peer review process.

This inquiry is closed and no further action will be taken in this case.

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG



                           -

                                  Page 1 of 1
